C'OCKLE

2311 Douglas Street i E-Mail Address:
Omaha, Nebraska 68102-1214 L & 8 a 1 B pigts contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-399

BARRY CAESAR GARCIA, PETITIONER,
Vv.
STATE OF NORTH DAKOTA, RESPONDENT.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 13th day of February, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the REPLY IN SUPPORT OF CERTIORARI in the above entitled case.
All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
Namrata Kotwani John R. Mills
SEYFARTH SHAW LLP Counsel of Record
560 Mission Street Genevie Gold
Suite 3100 PHILLIPS BLACK, INC.
San Francisco, CA 94105 1721 Broadway
Suite 201
Samuel A. Gereszek Oakland, CA 94612
BRUDVIK LAW OFFICE j-mills@phillipsblack.org
2810 19th Ave. S. (888) 532-0897

Grand Forks, ND 58201
Counsel for Petitioner

Subscribed and sworn to before me this 13th day of February, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE.

General Notary é 5
sei | Eile Qndear- bh,
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 39256

 
Attorneys for Respondent

Birch Peterson Burdick
Cass County State's Attorney
211 9th Street South
P.O. Box 2806
Fargo, ND 58108-2806

~ (701) 241-5850
burdickb@casscountynd.gov
